IN THE SUPREME COURT OF THE UNITED STATES
No. 20-142
MICHAEL SKIDMORE, TRUSTEE FOR THE RANDY CRAIG WOLFE TRUST ,
Petitioner,
V.
LED ZEPPELIN, ET AL.,

Respondents.
CERTIFICATE OF SERVICE

I, W. Michael Hensley, hereby certify that I caused 40 copies of the foregoing
MOTION FOR LEAVE TO FILE AMICUS CURIAE BRIEF AND BRIEF OF THE
PULLMAN GROUP, LLC AND STRUCTURED ASSET SALES, LLC AS AMICUS
CURIAE IN SUPPORT OF GRANTING THE PETITION in Michael Skidmore,
Trustee for the Randy Craig Wolfe Trust v. Led Zeppelin et al., to be sent via FedEx
to the U.S. Supreme Court, and 3 copies to be sent via FedEx and e-mail to each of
the following parties listed below, this 10th day of September, 2020:
Alfred J. (AJ) Fluehr, Esquire
FRANCIS ALEXANDER LLC
280 N. Providence Road I Suite 1
Media, PA 19063
(215) 341-1063
aj@francisalexander.com

Attorney for Petitioner Michael Skidmore, Trustee for the Randy Craig Wolfe Trust
Helene Freeman, Esquire
666 Fifth Avenue
New York, NY 10103-0084
(212) 841-0547
hfreeman@phillipsnizer.com

Attorney for Respondents James Patrick Page, Robert Anthony Plant, and John
Paul Jones (collectively with John Bonham (Deceased), professionally known as Led
Zeppelin)
Peter J. Anderson, Esquire
865 S Figueroa Street I Suite 2400
Los Angeles, CA 90017

(213) 633-6800
peteranderson^dwt.com

Attorney for Respondents Super Hype Publishing, Inc., Warner Music Group
Corp., Warner/Chappell Music, Inc., Atlantic Recording Corporation, and
Rhino Entertainment Company

All par’ties reqrUred to be served have been served.

Ifurther declare under penalty of perjury that the foregoing is true and correct.

This Certificate is executed on September 10, 2020.

Ki-ivi

w. Michael Hensley (
AlvaradoSmith

1MacArthur Place, Suite 200

Santa Ana, CA 92707
(714) 852-6835
mhenslev@alvaradosmith.com

